NO. 20-443
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,

v.
DZHOKHAR A. TSARNAEV,

Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(ii), the Brief in Opposition
contains 8,951 words, excluding the parts of the petition that are exempted by
Supreme Court Rule.
Dated: December 17, 2020

Respectfully submitted,

Arn Jacobsen

